TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Progress Has Been Made in Improving
                       the Accuracy of Trust Fund Recovery
                         Penalty Transactions; However,
                            Significant Work Remains



                                      September 21, 2007

                              Reference Number: 2007-10-183




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 21, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                CHIEF FINANCIAL OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Progress Has Been Made in Improving the
                                Accuracy of Trust Fund Recovery Penalty Transactions; However,
                                Significant Work Remains (Audit # 200610033)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has developed an effective methodology to improve its ability to readily and accurately
 account for Trust Fund Recovery Penalty (TFRP) transactions.1 This audit was requested by the
 Chief Financial Officer.

 Impact on the Taxpayer
 The Government Accountability Office has repeatedly reported that the IRS’ accounting for trust
 fund recovery transactions needs to be improved. We identified two areas management should
 address to help assure the accuracy of these types of transactions in the future: reconsider the
 projected completion date for the data cleanup effort and evaluate the accuracy of transactions
 posted during the data cleanup. The accurate posting of transactions to taxpayer accounts with
 TFRP assessments is critical to ensuring IRS records regarding taxpayer balance-due amounts
 are correct. Inaccurate account balances could result in incorrect information being provided to
 taxpayers attempting to resolve their delinquencies.




 1
   When a company does not pay the taxes it withholds from employee wages, such as Social Security or individual
 income tax, the IRS has the authority to assess all responsible corporate officers individually for the taxes withheld
 via the TFRP.
                            Progress Has Been Made in Improving the Accuracy of
                                 Trust Fund Recovery Penalty Transactions;
                                     However, Significant Work Remains



Synopsis
Progress is being made in addressing the reliability of TFRP transaction information recorded in
taxpayer accounts. However, despite a number of recent upgrades to the functionality of the
Automated Trust Fund Recovery system,2 the postings of many TFRP-related transactions still
require at least some manual processing. As part of its efforts to address the long-term material
weaknesses associated with the processing of these transactions, the IRS plans to begin
implementing systemic posting of payments on TFRP assessments to all related accounts
beginning in March 2008.
In preparation for implementation of the systemic cross-posting of payment transactions, the IRS
initiated a large-scale cleanup of taxpayer accounts with TFRP assessments. The purpose of the
data cleanup is to ensure taxpayer accounts contain the required links to related accounts and to
correct any missing or misapplied payments prior to conversion to the systemic posting of
payments. Planning for the cleanup of taxpayer accounts was begun in September 2006.
While the ongoing cleanup should significantly improve the reliability of existing information in
taxpayer accounts, we identified two areas that Small Business/Self-Employed (SB/SE) Division
management should address to help assure the cleanup and conversion are successful. First, the
projected timetable for completion of the data cleanup needs to be reconsidered. The data
cleanup is scheduled to be completed in January 2008. The most intensive phase, initiated on
May 4, 2007, involves a manual review of selected cases identified as containing one or more
potential account errors. However, completion of the manual phase of the cleanup will extend
significantly beyond the current projected date. As of July 14, 2007, 83,746 cases still required
initial review for potential errors and, based on present staffing and prior production rates, the
estimated remaining cases will take approximately 1 year to complete, which is significantly
beyond the current estimated completion date of January 2008.
Also, the action plan guiding the cleanup does not include any steps or dates relating to
confirming the impact of the cleanup on the overall accuracy of taxpayer accounts. For example,
the Chief Financial Officer routinely evaluates errors in taxpayer accounts with unpaid
assessments relating to TFRP assessments. The Chief Financial Officer’s most recent analysis
indicated that TFRP-related errors in taxpayer accounts totaled 49,545 as of May 2007. Chief
Financial Officer staff informed us the error reports on which this analysis was based can be
readily generated, as needed, to assist in tracking the progress made from the data cleanup.
Second, additional consideration should be given to evaluating the accuracy of transactions
posted during the data cleanup. The IRS informed us that accounts will be reviewed only once
as part of the manual cleanup. While this decision is understandable in light of the amount of
resources assigned to the cleanup effort, it puts the IRS at risk of not identifying all material

2
    This system is used to help support the preparation and input of TFRP assessments and related transactions.
                                                                                                                  2
                     Progress Has Been Made in Improving the Accuracy of
                          Trust Fund Recovery Penalty Transactions;
                              However, Significant Work Remains


errors in taxpayer accounts prior to conversion to systemic processing. Any new transactions
posting during the period July 2007 through January 2008 to either existing or new accounts
previously reviewed by a tax examiner during May or June 2007 will not be subject to evaluation
for errors prior to the conversion. The number of new transactions could be substantial and
presents a high risk of new account errors.

Recommendations
We recommended the Director, Campus Compliance Services, SB/SE Division, reevaluate the
estimated completion date for the data cleanup and the timing of subsequent planned events and
amend the TFRP action plan to include an evaluation of the impact of the cleanup on the overall
accuracy of taxpayer accounts using the error reports developed by the Chief Financial Officer.
The Director, Campus Compliance Services, SB/SE Division, in coordination with the Director,
Collection Policy, SB/SE Division, should also evaluate the feasibility of conducting a final
review of all taxpayer accounts with TFRP assessments for errors after the manual cleanup is
completed, to identify and correct any errors in transactions that posted during the cleanup.

Response
IRS management agreed with our recommendations and noted that they have already
implemented the substance of both recommendations. Specifically, management stated they
have reevaluated the estimated completion date for the cleanup. Based on additional staff being
trained and the continued rise in production rates, management anticipates meeting the target
completion date of January 31, 2008. In addition, the SB/SE Division is currently receiving
weekly error reports from the Chief Financial Officer and expects to receive them throughout the
cleanup initiative. The TFRP action plan has been updated to reflect this process. Finally,
management stated they will evaluate the feasibility of conducting a final review of the TFRP
accounts. Specifically, SB/SE Division management will perform a final assessment of the
results at project completion to evaluate the feasibility of conducting another review of all the
TFRP accounts prior to converting to a systemic payment posting process. Management’s
complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                  3
                             Progress Has Been Made in Improving the Accuracy of
                                  Trust Fund Recovery Penalty Transactions;
                                      However, Significant Work Remains




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Progress Has Been Made in Addressing the Reliability of
          Trust Fund Recovery Penalty Transaction Information Recorded
          in Taxpayer Accounts ....................................... …………………………………Page 3
          The Projected Timetable for Completion of the Data Cleanup Should
          Be Reconsidered ...........................................................................................Page 4
                    Recommendation 1:..........................................................Page 5

          Additional Consideration Should Be Given to Evaluating the Accuracy
          of Transactions Processed During the Data Cleanup....................................Page 5
                    Recommendation 2:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Management’s Response to the Draft Report ......................Page 12
        Progress Has Been Made in Improving the Accuracy of
             Trust Fund Recovery Penalty Transactions;
                 However, Significant Work Remains




                   Abbreviations

IRS          Internal Revenue Service
SB/SE        Small Business/Self-Employed
TFRP         Trust Fund Recovery Penalty
                          Progress Has Been Made in Improving the Accuracy of
                               Trust Fund Recovery Penalty Transactions;
                                   However, Significant Work Remains




                                              Background

When a company does not pay the taxes it withholds from employee wages, such as Social
Security or individual income tax, the Internal Revenue Service (IRS) has the authority to assess
all responsible corporate officers1 individually for the taxes withheld via the Trust Fund
Recovery Penalty (TFRP).2 Although the TFRP may be assessed against multiple individuals,
the total penalty amount may be collected only once. To accomplish this, IRS procedures
require that payments be cross-posted to all related individual and business accounts. Payments
should be cross-posted to the TFRP liability first until it is paid in full; any remaining payments
should next be applied toward lien fees and collection costs, such as installment agreement fees.
Payments applied to lien fees and collection costs should not be cross-posted to related taxpayer
accounts. Proper cross-posting of payments on TFRP assessments is dependent on the presence
of information in taxpayer records linking all related individual and business accounts.
The Small Business/Self-Employed (SB/SE) Division has overall responsibility for posting
TFRP assessments and related transactions to taxpayer accounts. It uses the Automated Trust
Fund Recovery system to help support the preparation and input of TFRP assessments and
related transactions. The Office of the Chief Financial Officer has overall responsibility for the
financial reporting of the IRS. In connection with this responsibility, the Chief Financial Officer
routinely evaluates taxpayer accounts with unpaid assessments relating to TFRP assessments to
properly report on these types of transactions.
The Government Accountability Office has repeatedly reported that the IRS’ accounting for trust
fund recovery transactions needs to be improved. For example, in its audit of the IRS’ 2006 and
2005 Financial Statements,3 the Government Accountability Office estimated that 11 percent of
all taxpayer accounts with trust fund recovery transactions contained inaccuracies. The
inaccuracies identified were primarily the result of the IRS’ failure to properly record payments
to all related taxpayer accounts associated with unpaid payroll taxes. Overall, the Government
Accountability Office found that, if the business or any officer of that business paid some or all
of the outstanding taxes, the IRS’ systems are unable to automatically reflect the payment as a
reduction in the amounts owed on any related accounts.
This review was performed at the Headquarters Office of the Chief Financial Officer and
SB/SE Division National Headquarters in Washington, D.C.; in the Ogden, Utah, and


1
  Any person required to collect, account for, and pay over taxes held in trust who willfully fails to perform any of
these activities.
2
  26 U.S.C. § 6672 (2006).
3
  IRS’ Fiscal Year 2006 and 2005 Financial Statements (GAO-07-136, dated November 2006).
                                                                                                               Page 1
                          Progress Has Been Made in Improving the Accuracy of
                               Trust Fund Recovery Penalty Transactions;
                                   However, Significant Work Remains



Brookhaven, New York, Campuses;4 and the Springfield, New Jersey, and Annapolis, Maryland,
SB/SE Division Collection Field function5 offices during the period November 2006 through
June 2007. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




4
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
5
  The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns.
                                                                                                             Page 2
                      Progress Has Been Made in Improving the Accuracy of
                           Trust Fund Recovery Penalty Transactions;
                               However, Significant Work Remains




                                Results of Review

Progress Has Been Made in Addressing the Reliability of Trust Fund
Recovery Penalty Transaction Information Recorded in Taxpayer
Accounts
Overall, the IRS continues to make progress in its efforts to develop and implement an effective
methodology for readily and accurately accounting for TFRP transactions. However, despite a
number of recent upgrades to the functionality of the Automated Trust Fund Recovery system,
the postings of many TFRP-related transactions still require at least some manual processing.
For example, the cross-posting of all payments related to TFRP assessments requires manual
processing, which significantly increases the risk of errors occurring.
As part of its efforts to address the long-term material weaknesses associated with the processing
of TFRP-related transactions, the IRS plans to begin implementing systemic posting of payments
for these assessments to all related accounts beginning in March 2008. It has already begun the
systemic processing of TFRP assessments to taxpayer accounts, although manual processing of
these transactions is still required in many cases.
In preparation for implementation of the systemic cross-posting of payment transactions, the IRS
initiated a large-scale cleanup of taxpayer accounts with TFRP assessments. The purpose of the
data cleanup is to ensure taxpayer accounts contain the required links to related accounts and to
correct any missing or misapplied payments prior to conversion to the systemic posting of
payments. Planning for the cleanup of taxpayer accounts was begun in September 2006.
While the ongoing cleanup should significantly improve the reliability of existing information in
taxpayer accounts, we identified two areas SB/SE Division management should address to help
assure the cleanup and conversion are successful:
     •   The projected timetable for completion of the data cleanup should be reconsidered.
     •   Additional consideration should be given to evaluating the accuracy of transactions
         posted during the data cleanup.
In addition, until the IRS completes implementation of the conversion to systemic processing of
TFRP-related transactions, we will be unable to reliably appraise the impact of any processing
enhancements on the accuracy of information posted to taxpayer accounts.




                                                                                           Page 3
                      Progress Has Been Made in Improving the Accuracy of
                           Trust Fund Recovery Penalty Transactions;
                               However, Significant Work Remains



The Projected Timetable for Completion of the Data Cleanup Should
Be Reconsidered
The purpose of the data cleanup is to ensure taxpayer accounts contain the required links to
related accounts and to correct any missing or misapplied payments prior to conversion to the
systemic posting of payments. The cleanup is scheduled to be completed in January 2008. The
most intensive phase, initiated on May 4, 2007, involves a manual review, by a team of 14 tax
examiners, of selected cases identified as containing 1 or more potential account errors. The
IRS’ efforts to address TFRP-related inaccuracies are guided by a detailed action plan that
describes the critical steps planned and estimated completion dates.
Completion of the manual phase of the cleanup will extend significantly beyond the current
projected date, based on the present staffing and expected number of cases still requiring manual
review. Specifically, cleanup inventory records indicate that between May 4 and July 14, 2007,
6,628 (66 percent) of 9,986 cases initially evaluated were identified as containing potential errors
and assigned for manual review. The IRS informed us that as of July 14, 2007, 83,746 cases still
required initial review for potential errors.
If the same percentage of these 83,746 cases requires manual review, which is likely given the
cases are evaluated based on randomly selected blocks of inventory, the remaining inventory of
work requiring tax examiner review will be approximately 55,000 cases. Based on present
staffing and prior production rates, the estimated remaining cases will take approximately
1 year to complete, which is significantly beyond the current estimated completion date of
January 2008.
Also, the action plan guiding the cleanup does not include any steps or dates relating to
confirming the impact of the cleanup on the overall accuracy of taxpayer accounts. For example,
the Chief Financial Officer, in connection with financial reporting responsibilities, routinely
evaluates errors in taxpayer accounts with unpaid assessments relating to TFRP assessments.
The account errors identified by the Chief Financial Officer all relate to missing or incorrect
account-linking information. The Chief Financial Officer’s most recent analysis indicated that
TFRP-related errors in taxpayer accounts totaled 49,545 as of May 2007. While this represents
a notable improvement over the 60,290 errors the Chief Financial Officer identified in
September 2006, it also highlights the significant volume of work remaining for the
SB/SE Division cleanup team. Chief Financial Officer staff informed us that the error reports on
which this analysis was based can be readily generated, as needed, to assist in tracking the
progress made from the cleanup.
Current and accurate information regarding project progress and results achieved is critical to
management’s ability to make sound, informed decisions regarding project resource needs and
accomplishments. For example, identifying whether account-linking errors still exist after the
cleanup would allow management to quickly gauge the success of this effort.

                                                                                             Page 4
                      Progress Has Been Made in Improving the Accuracy of
                           Trust Fund Recovery Penalty Transactions;
                               However, Significant Work Remains



Recommendation
Recommendation 1: The Director, Campus Compliance Services, SB/SE Division, should
a) reevaluate the estimated completion date for the data cleanup and the timing of subsequent
planned events and b) amend the TFRP action plan to include an evaluation of the impact of the
cleanup on the overall accuracy of taxpayer accounts using the error reports developed by the
Chief Financial Officer.
       Management’s Response: IRS management agreed with this recommendation.
       They have reevaluated the estimated completion date for the cleanup and, based on
       additional staff being trained and the continued rise in production rates, are confident
       about their projection. The IRS anticipates meeting the target completion date of
       January 31, 2008. In addition, management is currently receiving weekly error reports
       from the Chief Financial Officer and expects to receive them throughout the cleanup
       initiative. These reports are being used to monitor the impact of the cleanup on the
       overall accuracy of taxpayer accounts; the TFRP action plan has been updated to reflect
       this process.

Additional Consideration Should Be Given to Evaluating the Accuracy
of Transactions Processed During the Data Cleanup
For the cleanup efforts, taxpayer accounts are scheduled for evaluation based on the last two
digits of the associated business taxpayer’s Employer Identification Number. For example,
during May and June 2007, businesses with Employer Identification Numbers ending in
00 through 06 were evaluated and assigned to tax examiners for review. The tax examiners
reviewed the accounts selected and all related accounts for errors, such as missing account links
and missing or misapplied payments.
The IRS informed us that accounts will be reviewed only once as part of the manual cleanup.
While this decision is understandable in light of the amount of resources assigned to the cleanup
effort, it puts the IRS at risk of not identifying all material errors in taxpayer accounts prior to
conversion to systemic processing. Using the prior example, any new transactions posting to
either existing or new accounts with Employer Identification Numbers ending in 00 through 06
during the period July 2007 through January 2008 will not be subject to evaluation for errors
prior to the conversion. The number of new transactions could be substantial and presents a high
risk of new account errors. During the period April through November 2006, for example, over
84,000 payment transactions requiring cross-posting to 1 or more related accounts were
processed. In addition, as discussed previously, completion of the manual cleanup will likely
extend significantly beyond January 2008 based on the progress we noted by the end of our
fieldwork.


                                                                                             Page 5
                      Progress Has Been Made in Improving the Accuracy of
                           Trust Fund Recovery Penalty Transactions;
                               However, Significant Work Remains



Further, based on our review of a sample of recent payments posted to taxpayer accounts with
TFRP assessments, these types of transactions continue to contain errors that will need to be
corrected. Specifically, our review of 63 recent payments identified that these payments were
either not accurately posted to all related accounts (2 cases) or were posted to all related accounts
only after a significant delay (2 cases). While the IRS informed us that these types of errors will
be addressed as part of the ongoing cleanup, this is only true in cases involving transactions that
are considered during the one-time review based on Employer Identification Numbers.
In evaluating the errors we identified, it is important to note that TFRP assessments are
frequently not fully paid in one payment and that repayment may be made through a
multiyear installment agreement requiring monthly payments. As a result, even a relatively low
error rate in the accuracy of posting individual payments to a related account can result in a
significant percentage of taxpayer accounts with incorrect account balances. This occurs
because an error in posting any single payment to a taxpayer’s account will result in the
taxpayer’s account balance always being incorrect regardless of how many prior or subsequent
transactions were or are posted accurately to the same account.
Incorrect or untimely posting of payments on TFRP assessments to related taxpayer accounts
results in inaccurate account balance-due amounts, impedes the IRS’ ability to readily calculate
the balance of its unpaid assessments, and could result in inaccurate information being provided
to taxpayers attempting to resolve their delinquencies. In addition, the correction of existing
account errors, including missing or misapplied payments and incorrect or missing account links,
is critical to the successful implementation of the systemic TFRP payment posting process. For
example, without complete and correct account links, the systemic payment posting process will
be unable to accurately post taxpayer payments to all related accounts. In addition, any missing
or misapplied payments not corrected before the conversion will result in incorrect taxpayer
account balances being carried forward. Standards for Internal Control in the Federal
Government specify that focused evaluations are a useful tool for evaluating the effectiveness of
controls over the accuracy of transactions at a specific time.

Recommendation
Recommendation 2: The Director, Campus Compliance Services, SB/SE Division, in
coordination with the Director, Collection Policy, SB/SE Division, should evaluate the feasibility
of conducting a final review of all taxpayer accounts with TFRP assessments for errors after the
manual cleanup is completed, to identify and correct any errors in transactions that posted during
the cleanup. This evaluation should also weigh the risks and benefits of implementing the
conversion to systemic payment posting while a potentially significant number of errors still
exists in the database.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will evaluate the feasibility of conducting a final review of the TFRP accounts.

                                                                                              Page 6
              Progress Has Been Made in Improving the Accuracy of
                   Trust Fund Recovery Penalty Transactions;
                       However, Significant Work Remains



Specifically, a final assessment of the cleanup results at project completion will be
performed to evaluate the feasibility of conducting another review of all the TFRP
accounts prior to converting to a systemic payment posting process.




                                                                                        Page 7
                          Progress Has Been Made in Improving the Accuracy of
                               Trust Fund Recovery Penalty Transactions;
                                   However, Significant Work Remains



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has developed an effective
methodology to improve its ability to readily and accurately account for TFRP transactions.1 To
accomplish this objective, we:
I.       Determined whether effective controls have been established by the IRS to ensure TFRP
         transactions are timely and accurately recorded.
         A. Interviewed selected SB/SE Division Compliance function personnel responsible for
            the processing and recording of TFRP assessments and related payments.
         B. Prepared a flowchart of the method used to record TFRP assessments and related
            payments to taxpayer accounts and identified key controls.
         C. Reviewed management information used to monitor TFRP-related payment
            transaction volume, timeliness, and accuracy.
         D. Performed an onsite walkthrough of the TFRP assessment process at the
            Annapolis, Maryland, and Springfield, New Jersey, SB/SE Division Collection Field
            function2 offices and at the Ogden, Utah, Campus3 to evaluate the operation of the
            controls identified in Steps 1.A. through 1.C.
         E. Reviewed a randomly selected sample of 63 TFRP-related payment transactions.
             1. In December 2006, prepared a Master File4 data request to identify all TFRP
                taxpayer accounts containing a payment transaction posted during the period
                April through November 2006. A total of 84,685 payment transactions were
                identified. We selected a sample of 63 cases using a random number sampling
                program. We used random sampling to ensure all transactions would have an
                equal chance of being selected.


1
  When a company does not pay the taxes it withholds from employee wages, such as Social Security or individual
income tax, the IRS has the authority to assess all responsible corporate officers individually for the taxes withheld
via the TFRP.
2
  The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns.
3
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
4
  The IRS database that stores various types of taxpayer account information. The database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                               Page 8
                         Progress Has Been Made in Improving the Accuracy of
                              Trust Fund Recovery Penalty Transactions;
                                  However, Significant Work Remains



             2. To assess the reliability of the extracted data, compared it to IRS Master File data
                and source documentation including Request for Trust Fund Recovery Penalty
                Assessment(s) (Form 2749). We determined the reliability of the electronic data
                was adequate and valid for use in making our analytical conclusions.
             3. Obtained and reviewed supporting documentation for each sampled taxpayer case,
                including the Form 2749 and the applicable revenue officer5 case history.
             4. Compared supporting documentation for the selected sample cases to the
                information posted to the taxpayer records and determined whether:
                 a) The assessment amount was accurately input and all related business and
                    individual accounts were identified.
                 b) The 63 recent payments were timely and accurately credited to all related
                    accounts as required.
        F. Performed an onsite walkthrough of the TFRP payment posting process.
II.     Ascertained the status of IRS efforts to enhance accountability over TFRP-related
        receivables and collections.
        A. Interviewed Office of the Associate Chief Financial Officer for Revenue Financial
           Management personnel regarding the overall process used to review TFRP
           transaction data.
        B. Evaluated the methodology and exception parameters they used to identify
           inconsistencies in these data.
        C. Analyzed the TFRP action plan developed by the SB/SE Division to guide
           improvements to the method used to process these data.
        D. Reviewed the status of SB/SE Division efforts to identify and correct existing TFRP
           transaction errors in taxpayer accounts.




5
 An employee in the Collection Field function who attempts to contact taxpayers and resolve collection matters that
have not been resolved through notices sent by the IRS campuses or Automated Collection Services.
                                                                                                           Page 9
                    Progress Has Been Made in Improving the Accuracy of
                         Trust Fund Recovery Penalty Transactions;
                             However, Significant Work Remains



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Mildred Rita Woody, Lead Auditor
Richard E. Louden, Senior Auditor
James S. Mills, Jr., Senior Auditor
Angela Garner, Auditor




                                                                                    Page 10
                   Progress Has Been Made in Improving the Accuracy of
                        Trust Fund Recovery Penalty Transactions;
                            However, Significant Work Remains



                                                                         Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner-Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S
                Chief Financial Officer OS:CFO




                                                                                 Page 11
      Progress Has Been Made in Improving the Accuracy of
           Trust Fund Recovery Penalty Transactions;
               However, Significant Work Remains



                                                 Appendix IV

Management’s Response to the Draft Report




                                                        Page 12
Progress Has Been Made in Improving the Accuracy of
     Trust Fund Recovery Penalty Transactions;
         However, Significant Work Remains




                                                  Page 13
Progress Has Been Made in Improving the Accuracy of
     Trust Fund Recovery Penalty Transactions;
         However, Significant Work Remains




                                                  Page 14
Progress Has Been Made in Improving the Accuracy of
     Trust Fund Recovery Penalty Transactions;
         However, Significant Work Remains




                                                  Page 15
